                      United States Attorney S. Amanda Marshall
                                  District of Oregon

FOR IMMEDIATE RELEASE                                                   CONTACT: Gerri Badden
Tuesday, December 20, 2011                                                 PHONE: 503-727-1033
                                                                           www.usdoj.gov/usao/or


              COOS BAY COMPANY, ITS OWNER AND SIX EMPLOYEES
                INDICTED FOR FRAUD ON DEFENSE CONTRACTS

        EUGENE, Ore. — A Coos Bay business, its owner and six employees were arraigned in
federal court today on an indictment returned by a federal grand jury on December 14, 2011.
The indictment alleges that Kustom Products, Inc. (KPI), a vehicle parts supply business located
at 1084 South 5th Street, Coos Bay, Oregon, its owner and six employees committed fraud on
contracts with the United States Department of Defense (DoD) valued at over $7.5 million.
The indicted owner is Harold Ray Bettencourt II. The indicted employees are Bettencourt’s
former wife (Kathy Sue Bettencourt), three of his sons (Harold Ray Bettencourt III [Bo],
Nicholas Ryan Bettencourt and Peter Tracy Bettencourt), his office manager (Margo Antonette
Densmore), and his purchasing agent (Joshua Lee Kemp). The indictment alleges that KPI,
Bettencourt and the others committed wire fraud, conspiracy to commit wire fraud, fraud
involving aircraft parts, money laundering, and conspiracy to commit money laundering. It also
alleges that all proceeds traceable to the fraud are to be forfeited including $365,503.26 in funds
from 20 bank accounts, eight vehicles, one boat, two boat trailers, two jet skis, and three all-
terrain vehicles.

        Harold Ray Bettencourt II is 57 years of age and resides at 644 9th Avenue in Coos Bay,
Oregon. Kathy Sue Bettencourt is 54 years of age and resides at 96159 Gravelford Lane in
Myrtle Point, Oregon. Bo Bettencourt is 31 years of age and resides at 2180 Garfield Street in
North Bend, Oregon. Nicholas Ryan Bettencourt is 29 years of age and resides at 2190 Garfield
Street in North Bend, Oregon. Peter Tracy Bettencourt is 25 years of age and resides at 2145
Garfield Street in North Bend, Oregon. Margo Antonette Densmore is 40 years of age and
resides at 644 9th Avenue in Coos Bay, Oregon. Joshua Lee Kemp is 37 years of age and resides
at 1026 Sanford Avenue in Coos Bay, Oregon.

        The indictment alleges that KPI and a predecessor business, Southern Oregon Sterling
Parts and Service (SOS), provided nonconforming, defective and counterfeit products to the DoD
for the purpose of increasing their profit margin. It alleges that KPI and SOS committed fraud
on at least 392 contracts resulting in payments of $7,523,406.59. The indictment alleges that the
various nonconforming and counterfeit products where provided to the DoD from KPI through
DoD supply centers in Columbus, Ohio; Philadelphia, Pennsylvania; and Richmond, Virginia.
Some of the products were critical application items, defined as items essential to weapons
systems performance or operation, or the preservation of life or safety of operational personnel.
Examples were defective aviation locknuts for the Kiowa helicopter. These locknuts were used
on the main rotor assembly of the Kiowa helicopter and were flight critical because the failure of

                                                 1
the main rotary assembly could be catastrophic, resulting in death or serious injury to military
personnel. Other critical application items included clamp loops used in C-5 military transport
plane engines and other aircraft.

        The indictment alleges that Harold Bettencourt II facilitated the scheme by directing
other defendants to carry out actions on behalf of KPI and its predecessor SOS, such as making
false representations in contracts, providing non-conforming and counterfeit products, and
providing false documents to the DoD. The indictment includes a number of examples of how
the fraud was committed, and explains how some products were counterfeited in Mexico or
obtained in China, even though KPI represented them to be from DoD-approved manufacturers
in the United States. The DoD-approved manufacturers whose parts were counterfeited or
otherwise misrepresented to be genuine include Caterpillar, Inc., BAE Systems Land and
Armaments, Freightliner, Pacific Industrial Components, Inc., and SPS Technologies. The
indictment also alleges that KPI and its predecessor SOS counterfeited heat treatment
certifications of Timber Products Inspection, Inc. on wood packaging materials in order to
decrease expenses and increase profits.

        The indictment charges all defendants with wire fraud and conspiracy to commit wire
fraud. The maximum statutory penalty for wire fraud and conspiracy to commit wire fraud is a
20 year term of imprisonment and a $250,000.00 fine, followed by a three year term of
supervised release. It also charges Harold Ray Bettencourt II, Nicholas Ryan Bettencourt and
Joshua Lee Kemp with fraud involving aircraft parts. The maximum statutory penalty for fraud
involving aircraft parts is a 10 year term of imprisonment and $250,000.00 fine, followed by a
three year term of supervised release. The indictment also charges Harold Ray Bettencourt II,
Kathy Sue Bettencourt, Bo Bettencourt, Nicholas Ryan Bettencourt, Margo Antonette Densmore
and KPI with money laundering and conspiracy to commit money laundering. The maximum
statutory penalty for money laundering is a 10 year term of imprisonment and $250,000.00 fine,
followed by a three year term of supervised release.

       The matter is scheduled for trial before United States District Judge Michael R. Hogan on
June 27, 2012. All defendants were released on conditions pending trial.

        S. Amanda Marshall, United States Attorney for the District of Oregon, emphasized the
serious nature of the charges: “The allegation that military personnel were placed in harm’s way
for the sole purpose of financial profit warrants vigorous investigation and prosecution.”

      A criminal indictment is only an allegation and not evidence of guilt. All defendants are
presumed to be innocent unless and until proven guilty.

       The case is being investigated by the Department of Defense/Office of Inspector
General/Defense Criminal Investigative Service, the Army Criminal Investigative Division
Major Procurement Fraud Unit, the Federal Bureau of Investigation, the Internal Revenue
Service Criminal Investigation Division, the Social Security Administration/Office of Inspector
General, and Immigration and Customs Enforcement. The case is being prosecuted by Assistant
U. S. Attorney Sean B. Hoar.
                                               ###

                                               2
